Appalachian Regional Commission



Inspector General’s
Semiannual Report
To Congress

October 1, 2003 – March 31, 2004
MEMORANDUM FOR              THE FEDERAL CO-CHAIR

SUBJECT:                   Semiannual Report to Congress


In accordance with the requirements of the Inspector General Act Amendments of 1988,
Public Law 100-504, I am pleased to submit the Office of Inspector General Semiannual
Report to Congress for the period October 1, 2003 through March 31, 2004.

This Semiannual Report to Congress summarizes the activities of our office for the 6-
month period ending March 31, 2004. During this Semiannual period we issued 7
reports to the Appalachian Regional Commission. There were no investigations closed
during this period. One investigative contact was made to other prosecutive authorities
as well as continued monitoring of another action started as a result of a referral from my
office. There is one ongoing investigation.

During the period, the IG continued to serve as representative of the Executive Council on
Integrity and Efficiency. Also, the IG continued to serve as the IG of the Denali
Commission in line with a Memorandum of Agreement between the Appalachian Regional
Commission Inspector General and the Denali Commission Federal Co-Chair. One report
was issued during this period to the Denali Commission.

The Inspector General Act of 1978, as amended by the Inspector General Act
Amendments of 1988, provides that this report be forwarded to appropriate Congressional
committees within 30 days and that you provide whatever additional comments you
consider appropriate.

I appreciate the Commission’s and your offices’ cooperation with the Office of Inspector
General in the conduct of our operations.




Clifford H. Jennings
Inspector General

Enclosure
                                    TABLE OF CONTENTS


                                                                                                                       Page

        Executive Summary                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

        Purpose and Requirements of the OIG Semiannual Report                                         . . . . . . . . . . . iii

  I.    Introduction                      ...........................................1

 II.    Background                       ............................................1

        Appalachian Regional Commission                           ..............................1

        Office of Inspector General                     ...................................5

 III.   OIG Activity                      ...........................................6

        Audits                         ..............................................6

        Investigations                     ..........................................6

 IV. Audit Planning                        ..........................................7

  V.    OIG Hotline                       ...........................................7

 VI. Legislative & Regulatory Review                        .................................8

 VII. Other                            ..............................................8

Appendices       A.      Schedule of Audit Reports Issued,
                         October 1, 2003, through March 31, 2004

                 B.      Schedule of Audit Reports with Questioned or Unsupported Costs

                 C.      Schedule of Audit Reports with Recommendations that Funds be put to
                         Better Use

                 D.      Definition of Terms Used




                                                 i
                                    EXECUTIVE SUMMARY


During this reporting period, the Office of Inspector General (OIG) issued 7 reports to the
Appalachian Regional Commission with one additional report being issued to the Denali
Commission. Recommendations in grant reviews were directed at improved reporting and eligibility
of expenditures.

Grant reviews disclosed projects were generally being implemented in accordance with program
requirements and grantees generally had satisfactory accounting systems and internal controls. A
change in audit reporting procedures has brought more oversight to grants by the program managers.
The J-1 Visa Waiver program provides a waiver of requirements for a foreign physician to return to
his/her home country after completion of medical training in the United States. ARC participates as
a Federal Entity sponsor to assist Appalachian communities in providing healthcare services to
medically underserved areas. The applicable ARC policies and procedures require J-1 physicians to
practice 40 hours of primary care per week in a designated Health Profession Shortage Area (HPSA)
in the Appalachian Region and serve at least 3 years (unless a State has a longer period). There is no
prohibition on J-1 physicians working extra hours or practicing subspecialties after fulfilling primary
care requirements.

During the reporting period, the IG served on the Executive Council on Integrity and Efficiency.
The IG is a member of the Government Audit Training Institute Advisory Committee. The IG
continued as the Inspector General of the Denali Commission under a Memorandum of Agreement
with the Denali Commission Federal Co-Chair.

The OIG has met with Commission staff and contractors to work towards the successful completion
of the first financial statement audit of the Commission. While the unique makeup of the
Commission required much research on determining the applicable standards to be used in preparing
financial statements, the Commission staff has made great strides during the past year in working
towards a final determination of standards to be used and coming up with a standard format that will
be equally acceptable to all parties. Lastly, the Inspector General has continued the process of
designing an OIG portion of the Commission Management Information System (MIS), which, when
completed, will allow Commission managers access to OIG reports and information directly. The
OIG has worked with the Commission staff to place OIG information on the Commission web site.




                                                 ii
                         PURPOSE AND REQUIREMENTS OF THE
                  OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT


The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress fully
and currently informed about problems and deficiencies in the Commission's operations and the
necessity for corrective action. In addition, the Act specifies that semiannual reports will be
provided to the Federal Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not change
any part of the report. The specific requirements prescribed in the Act, as amended (Public Law
100-504), are listed below.


                                           Reporting Requirements

Section 4(a)(2)            Review of legislation and regulations                                 Page 8

Section 5(a)(1)            Problems, abuses, and deficiencies                                    Page 6

Section 5(a)(2)            Recommendations with respect to problems, abuses, and deficiencies    Page 6

Section 5(a)(3)            Prior significant recommendations not yet implemented                 *

Section 5(a)(4)            Matters referred to prosecutive authorities                           Page 6

Section 5(a)(5) and        Summary of instances where information was refused                    *
6(b)(2)

Section 5(a)(6)            Listing of audit reports showing number of reports and dollar value   App A
                           of questioned costs

Section 5(a)(7)            Summary of each particularly significant report                       **

Section 5(a)(8)            Statistical table showing number of reports and dollar value of       App B
                           questioned costs

Section 5(a)(9)            Statistical table showing number of reports and dollar value of       App C
                           recommendations that funds be put to better use

Section 5(a)(10)           Summary of each audit issued before this reporting period for which   Page 6
                           no management decision was made by end of the reporting period

Section 5(a)(11)           Significant revised management decisions                              *

Section 5(a)(12)           Significant management decisions with which the Inspector General     *
                           disagrees



*       None.

**      See references to Sections 5(a)(1) and 5(a)(2) for discussion of significant reports.


                                                     iii
I.       INTRODUCTION

The Inspector General Act Amendments of 1988 (P.L. 100-504) provided for the establishment of an
Office of Inspector General (OIG) at 30 designated Federal entities, including the ARC. The ARC
OIG became operational on October 1, 1989, with the appointment of an IG and provision of
budgetary authority for contracted audit and/or investigation activities.


II.      BACKGROUND

         A.     APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965 (P.L. 89-4) established the Appalachian
Regional Commission. The Act authorizes a Federal/State partnership designed to promote long-
term economic development on a coordinated regional basis in the 13 Appalachian States. The
Commission represents a unique experiment in partnership among the Federal, State, and local levels
of Government and between the public and private sectors. It is composed of the Governors of the
13 Appalachian States and a Federal representative who is appointed by the President. The Federal
representative serves as the Federal Co-Chair with the Governors electing one of their number to
serve as the States' Co-Chair.

     -   Through joint planning and development of regional priorities, ARC funds are used to assist
         and encourage other public and private resources to address Appalachia's unique needs.
         Program direction and policy are established by the Commission (ARC Code) by the vote of
         a majority of the State members and the affirmative vote of the Federal Co-Chair. Emphasis
         has been placed on highways, infrastructure development, business enterprise, and human
         resources programs.

     -   Administratively, the Office of the Federal Co-Chair, with a staff of 11, and the Commission,
         with a staff of 48, are responsible for ARC operations. The States maintain an Office of
         States' Representative (3 persons) that has primarily liaison responsibilities. All personnel
         are located in Washington, DC. The Commission staff's administrative expenses, including
         salaries, are funded jointly by Federal and State funds; the States' Representative staff is
         funded entirely by the States; and the Federal Office staff is funded entirely from Federal
         funds.

     -   The Commission's appropriation for FY 2004 was $ 66 million. ARC was fully reauthorized
         by Congress in FY 1999, for the first time since 1982, and reauthorized in March 2002.
         Also, the Transportation Equity Act for the 21st Century (TEA-21) authorized $2.25 billion
         for the construction of the Appalachian Development Highway System (ADHS) under
         Section 201 of the 1965 Appalachian Regional Development Act. Enacted in 1998, TEA-21
         authorizes $450 million to be appropriated from the Highway Trust Fund annually from
         FY 1999 through FY 2003. These funds are derived from the Federal Highway Trust Fund
         but remain under ARC’s programmatic jurisdiction.




                                                  1
        -    Program funds are distributed to State and local entities in line with an allocation formula
             intended to provide fair and reasonable distribution of available resources. ARC staff has
             responsibilities for program development, policy analysis and review, grant development,
             technical assistance to States, and management and oversight.

        -    In order to avail itself of Federal agency expertise and administrative capability in certain
             areas, the ARC often relies on other departments and agencies for program administration,
             especially with respect to highways and infrastructure projects. For example, the
             Appalachian Regional Development Act authorizes the Secretary of Transportation to
             administer the Commission's highway programs. Under this arrangement, the Commission
             retains responsibility for priorities, highway locations, and fund allocations.




                    Appalachian Regional Commission



        Federal Co-                                           13 Governors/States’ Co-

Federal Alternate                                                                   Governors’ Alternates

   Federal Office                                                                   States’ Washington Office

Inspector General                    Executive Director

            General Counsel                                            Local Development Districts

                Public Affairs                                         Human Resources



Planning and Research                Program Operations                 Finance and Administration

      Transportation                     Entrepreneurship                     Publications




                                                      2
Appalachia as defined in the legislation from which the Appalachian Regional Commission derives its
authority, is a 200,000-square-mile region that follows the spine of the Appalachian Mountains from southern
New York to northern Mississippi. It includes all of West Virginia and parts of twelve other states: Alabama,
Georgia, Kentucky, Maryland, Mississippi, New York, North Carolina, Ohio, Pennsylvania, South Carolina,
Tennessee, and Virginia.




                                                      3
4
               B.      OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent audit and investigative unit. An independent Inspector General
who reports directly to the Federal Co-Chair heads the OIG.

               Role and Authority

The Inspector General Act of 1978 (P.L. 95-452), as amended in 1988, states that the IG is
responsible for (1) audits and investigations; (2) review of legislation; and (3) recommendation of
policies for the purpose of promoting economy and efficiency in the administration of, or preventing
and detecting fraud and abuse in, the program and operations of the establishment. In this regard,
the IG is responsible for keeping the Federal Co-Chair and Congress fully informed about the
problems and deficiencies in ARC programs and operations and the need for corrective action. The
IG has authority to inquire into all ARC programs and activities that are federally funded. The
inquiries may be in the form of audits, surveys, investigations, personnel security checks, or other
appropriate methods. The two primary purposes of these inquiries are (1) to assist all levels of ARC
management by identifying and reporting problem areas, weaknesses, or deficiencies in procedures,
policies, program implementation, and employee conduct and (2) to recommend appropriate
corrective actions.

               Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are codified in the ARC Code and implemented by
the Commission staff, which is responsible for monitoring project performance and providing
technical assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is responsible for
the proper use and protection of Federal funds, for ensuring compliance with applicable Federal laws
and regulations, and for taking appropriate action on conditions needing improvement, including
those reported by the OIG. The operations of the OIG neither replace established lines of operating
authority nor eliminate the need for the Commission offices to take reasonable measures to protect
and enhance the integrity and effectiveness of their operations. All Commission offices are
responsible for monitoring and evaluating the programs entrusted to them and reporting information
or incidences needing further audit and/or investigation to the IG.

               Funding and Staffing

The OIG funding level for FY 2004 is $501,000 prior to a rescission. For FY 2003, approximately
25 percent was for contract audit services; 62 percent, for salaries and benefits; 6.5 percent, for
travel; and 6.5 percent, for all other activities (training, equipment, space, supplies, etc.).

Staffing consists of the Inspector General, an auditor, and a confidential assistant. Grant review
activities continue to emphasize use of contracted services (e.g., independent public accounting
firms or other OIG offices) supplemented by programmatic and performance reviews directed by
OIG staff. Investigative and engineering assistance has been provided by other OIG offices on an
as-needed basis through memoranda of understanding. This approach has been deemed the most
appropriate to date in view of the nature of ARC operations and limited resources.



                                                  5
III.   OIG ACTIVITY

       A.      AUDITS

During the reporting period, 7 reports were issued dealing with grants and grantees. Other ongoing
reviews are in their final stages. The division of OIG resources results in audit work being
performed by a combination of permanent and contractor’s staff. Emphasis will continue to be
placed on surveys of ARC operations and programs, completion of grant audits, audit resolution and
followup, and physician compliance with J-1 Visa Waiver program requirements.

In the past, we have reported that the one common theme resulting from a reading of all the audit
reports as a group is the need for ARC staff to put more emphasis on oversight of ongoing grants and
to be firmer in the administration and management of grants. For example, there have been
instances where grantees have been given further funding when they had not submitted status reports
supporting the expenditure of previous allocations. The IG met with program operations staff to
discuss the need for better grant oversight and the need to require that the grantees adhere to grant
provisions and timeframes. A change in the manner of handling draft audit reports and the agency
response has brought the program managers more directly into the oversight function of the grants
that they manage. It is expected that, moving forward, this should not be a reportable issue.

Our report issued during a previous period on the Systems Engineer and Employment Project at
Auburn University at Montgomery (OIG Report 03-16 ARC Grant AL-13484) had ten
recommendations and $109,724 in questioned costs of the $200,000 grant. Further, $79,499 in
matching contributions was questioned. The questioned costs are a result of the grantee’s
unauthorized changes in the scope of work and billing procedures; lack of documentation of
program results and internal control issues. The grantee has stated that they have begun revising
their policy and procedures. Followup and oversight by ARC should result in full resolution of
many of the issues raised in the report and negotiations are ongoing.

       B.      INVESTIGATIONS

The Inspector General Act of 1978, as amended, provides that the IG may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of
law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The OIG
does not employ criminal investigators. When the need has arisen, the matter would be referred to
the Federal Bureau of Investigation or assistance would be contracted with another Federal OIG.
Also, the results of investigations may be referred to the appropriate Federal, State, or local
prosecutive authorities for action.

The OIG currently has one investigation ongoing with the support of another OIG criminal
investigators. Further, the OIG is monitoring two other investigations being conducted by state law
enforcement or ethics organizations that relate to ARC programs. In one instance the case was
referred to the state by the OIG.




                                                  6
IV.     AUDIT PLANNING

The OIG will be alert for new or revised areas of ARC operations based on the priorities and
emphasis of ARC management, including results of strategic planning initiatives. Audit planning
will include consideration of such initiatives with the overall goal being to ensure coverage of high
priority, including high dollar, areas in order to assist management to fulfill their responsibilities for
effective and efficient program operations.

Of particular importance is maintaining the flexibility of the audit plan to address changing needs
and priorities. Coordination with ongoing ARC efforts to implement an entity-wide strategic plan is
considered an important element of planning, and discussions with ARC management have
identified several areas for review.

The OIG's strategies and objectives for the next 5 years are defined in a strategic plan. The FY 2003
Annual Plan provides the operational details for OIG activities during FYs 2002-2005 to implement
this strategic plan. We expect to revise this strategic plan periodically until our experiences validate
our planning assumptions and a comfort level with how we have programmed activities over this
extended time period has been achieved.

Planned FY 2003 audit work included about 30 individual grant audits in the Appalachian States;
additional followup on grants with completed budget periods, grant extensions, and project results;
and tests of the J-1 Visa Waiver program. The work not performed during the past fiscal year will
be carried over to the upcoming fiscal year. Continued emphasis will be placed on audit followup
and corrective action plans, including working with agency management to address open issues and
achieve audit resolution and closure. Further emphasis will be placed on audits performed prior to
grant completion. This method will allow the auditors to spot problems during the period of
performance and will allow the grantees, who are usually smaller entities, to correct problems mid-
stream and avoid grant closeout problems that, in many cases, the grantee cannot afford to remedy.
The proactivity with the grantees serves not only the grantee but also the Commission as it allows
for a better use of funding and a greater likelihood of mission accomplishment.

In order to maximize use of available resources directed at reviewing ARC activities, emphasis will
continue to be placed on nonstandard reporting formats including memorandum, letter, and survey
reports. Although such reporting formats reduce the time and resources necessary for review
completion, the results and information included in such reports are based on evidence and
supporting documentation consistent with generally accepted auditing standards.


V.      OIG HOTLINE

A regionwide toll-free hotline was previously established to enable direct and confidential contact
with the ARC OIG in line with governmental and longstanding OIG initiatives as identified in the IG
Act of 1978 to afford opportunities for identification of areas subject to fraud, waste, or abuse.
However, contacts with the ARC OIG relative to public complaints or concerns continue to be
primarily received through ARC staff, on regular OIG phone lines, or from other OIG offices.


                                                    7
Also, numerous hotline calls were received with respect to matters for which other agencies have
jurisdiction. This resulted primarily from the ARC OIG hotline apparently being the first such OIG
listing in some telephone directories, resulting in ARC OIG being contacted by citizens who did not
know the appropriate agency for handling their concerns. The ARC OIG facilitated the complaint
process by identifying the applicable agency based on complainant information and providing the
correct OIG hotline number. The ARC OIG Hotline also serves as the hotline for the Denali
Commission.

VI.     LEGISLATIVE AND REGULATORY REVIEW

Primary efforts in this area continued to be related to potential legislative initiatives with respect to
OIG operations. The ARC OIG continues to support legislation that would provide improved
protections for IGs, including designated and career IGs, by consideration of alternatives such as
removal for cause criteria and term limits. The IG disagrees with current proposals about
consolidation of designated federal entity IG offices.

VII.    OTHER

The Inspector General continued to meet with Commission staff to work towards completion of
audited financial statements. While the unique makeup of the Commission required research on
determining the applicable standard to be used in preparing financial statements, the Commission,
working with the independent public accountant, successfully completed the first financial statement
audit. Further, the IG has worked with Commission staff responsible for the J-1 program to gather
information early in the process that will assist not only the Commission but also the OIG in
monitoring the program internal controls. The OIG began to review J-1 recipients during the
reporting period by making unannounced visits to various holders of J-1 visas. The IG is continuing
the process of developing an OIG portion of the Commission MIS, which, when completed, will
allow Commission managers access to OIG reports and information directly. The OIG will work
with the Commission staff to place OIG information on the Commission website during the
upcoming period.

The IG continued to serve on the Executive Council on Integrity and Efficiency. The IG continued
to serve as the Inspector General of the Denali Commission in line with a Memorandum of
Agreement between the ARC IG and the Denali Commission Federal Co-Chair. During this period,
a site visit was made to the Denali Commission and Alaska. A followup was conducted and will be
completed early in the next fiscal year. The full audit report is included in the most recent Denali
Commission annual report. The Denali Commission has also forwarded an inquiry into a project
that the OIG reviewed during the period with the assistance of an engineer from the EPA OIG. The
report was issued to the Denali Commission during this reporting period.

The IG will make a presentation to ARC grantees and potential grantees during a statewide
workshop held in Alabama during the upcoming period.

A peer review of the ARC OIG was completed during the reporting period. The Office of
Inspector General, Federal Maritime Commission, conducted the review. Our office received an
unqualified opinion on our system of audit quality control.



                                                   8
                                                                                                                                    APPENDIX A



                SCHEDULE OF REPORTS ISSUED OCTOBER 1, 2003, TO MARCH 31, 2004

                                                                                ARC


    Report                                     Entity and Title                                 Program Dollars           Questioned/          Funds to Better
     No.                                                                                       or Contract/Grant          Unsupported             Use***
                                                                                                   Amount*                  Costs**


04-1              Conservation Fund , WV-13336                                                 $100,000               $25,499


04-2              2001 Admin. Fun, Ohio Mid Eastern Governments Association                    $178,000
                  (OMEGA) LDD (OH-0707C-C32)

04-3              2002 Admin. Fund, OMEGA LDD (OH-0707C-C33)                                   $178,355

04-4              2003Admin Fund, OMEGA LDD (OH-0707C-C34)                                     $176,666

04-5              J-1 Visa Waiver Physician Review (Ohio)                                      N/A

04-6              Financial Statement Audit (FY03)                                             $85,274,357

04-7              South Carolina Council of Governments, Revolving Loan Funds (SC-             $2,425,000
                  13809, 13782)


                                                                                               $88,332,378            $25,499
TOTALS


*            Grant amounts reported are for ARC grant amounts and do not include matching funds.

**           A cost the Office of Inspector General has questioned because of an alleged violation of law, regulation, contract, or other agreements governing the
             expenditure of funds; such cost is not supported by adequate documentation; or the expenditure of funds for the intended purpose is unnecessary or
             unreasonable. Includes required matching contributions.

***          Funds the Office of Inspector General has identified in an audit recommendation that could be used more efficiently by reducing outlays, deobligating
             program or operational funds, avoiding unnecessary expenditures, or taking other efficiency measures, such as timely use of funds.




                SCHEDULE OF REPORTS ISSUED OCTOBER 1, 2003, TO MARCH 31, 2004
                                     Denali Commission



    Report                                     Entity and Title                                 Program Dollars           Questioned/          Funds to Better
     No.                                                                                       or Contract/Grant          Unsupported             Use***
                                                                                                   Amount*                  Costs**


04-1              Technical Review of the Tanana Bulk Fuel Storage Project                     $2,500,000             $


TOTALS                                                                                         $2,500,000             $
                                                                       APPENDIX B

                              SCHEDULE OF AUDIT REPORTS WITH
                             QUESTIONED OR UNSUPPORTED COSTS
                                       ($ in thousands)


                                           No. of    Questioned   Unsupported
                                           Reports      Costs        Costs

A.   For which no management decision         4        $ 402
     was made by the commencement of
     the reporting period

B.   Which were issued during the             1       $   25          $ 0
     reporting period

     Subtotals (A + B)                       5         $ 427            $

C.   For which a management decision                                    $
     was made during the reporting
     period

     (i)      dollar value of disallowed      2           6             $
              costs

     (ii)     dollar value of costs not       2        $ 140
              disallowed

D.   For which no management decision         2        $ 280
     has been made by the end of the
     reporting period

E.   Reports for which no management          2        $ 252
     decision was made within 6 months
     of issuance
                                                                                        APPENDIX C

                      SCHEDULE OF AUDIT REPORTS WITH
               RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                 No. of      Dollar Value
                                                                 Reports   ($ in thousands)

A.   For which no management decision was made by the              2            $ 685
     commencement of the reporting period

B.   Which were issued during the reporting period                              $

     Subtotals (A + B)                                             2            $ 685

C.   For which a management decision was made during the            0           $
     reporting period

     (i)      dollar value of recommendations that were agreed      -
              to by management

              --based on proposed management action                 -

              --based on proposed legislative action                -

     (ii)     dollar value of recommendations that were not         -
              agreed to by management

D.   For which no management decision has been made by the         2            $ 685
     end of the reporting period


E.   Reports for which no final management decision was made       2            $ 605
     within 6 months of issuance
                                                                                          APPENDIX D

                                  DEFINITIONS OF TERMS USED


The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost which the Office of Inspector General (OIG) questioned
                                      because of an alleged violation of a provision of a law, regulation,
                                      contract, or other agreement or document governing the expenditure
                                      of funds; such cost is not supported by adequate documentation; or
                                      the expenditure of funds for the intended purpose is unnecessary or
                                      unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was not supported
                                      by adequate documentation at the time of the audit.

Disallowed Cost                       A questioned cost that management, in a management decision, has
                                      sustained or agreed should not be charged to the Commission.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be used more
                                      efficiently if management took actions to implement and complete
                                      the recommendation.

Management Decision                   Management's evaluation of the findings and recommendations
                                      included in the audit report and the issuance of a final decision by
                                      management concerning its response to such findings and
                                      recommendations, including actions concluded to be necessary.
                                      Interim decisions and actions are not considered final management
                                      decisions for the purpose of the tables in this report.

Final Action                          The completion of all management actions that are described in a
                                      management decision with respect to audit findings and
                                      recommendations. If management concluded that no actions were
                                      necessary, final action occurs when a management decision is issued.
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Rm 215

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
   Appalachian Regional Commission

      Office of Inspector General
1666 Connecticut Avenue, NW, Suite 215
     Washington, DC 20009-1068
